                                              OFFICE OF JOB CORPS



Office of Inspector General—Office of Audit




                                              PERFORMANCE AUDIT FOR RESCARE, INC.,
                                              JOB CORPS CENTERS




                                                                      Date:      March 3, 2010
                                                                    Report:   26-10-002-01-370
U.S. Department of Labor                                    March 2010
Office of Inspector General
Office of Audit
                                                            PERFORMANCE AUDIT FOR RESCARE, INC.,
                                                            JOB CORPS CENTERS

BRIEFLY…                                                    WHAT OIG FOUND
Highlights of Report Number 26-10-002-01-370, to the        ResCare did not always ensure compliance with Job
Interim National Director, Office of Job Corps.             Corps requirements for managing and reporting
                                                            financial activity for one of three areas tested – non-
WHY READ THE REPORT                                         personnel expenses. At Treasure Island, ResCare
This report discusses weaknesses related to managing        charged unallowable costs to Job Corps for the center
and reporting financial activity, managing safety and       director’s personal housing and travel expenses.
health programs, and reporting performance at two Job       Treasure Island and Miami also did not always provide
Corps Centers operated by ResCare, Incorporated             reasonable assurance that other center expenses were
(ResCare).                                                  appropriate. Consequently, unallowable costs were
                                                            charged to Job Corps.
WHY OIG CONDUCTED THE AUDIT
Our audit objectives were to answer the following           ResCare did not always ensure compliance with Job
questions:                                                  Corps requirements for safety and health programs in
                                                            each of the three areas reviewed – student misconduct,
1. Did ResCare ensure compliance with Job Corps             safety inspections, and safety committee meetings.
requirements for managing and reporting financial           Treasure Island and Miami did not always convene
activity?                                                   required fact-finding boards (FFB) for students
                                                            suspected of serious misconduct. Miami also did not
2. Did ResCare ensure compliance with Job Corps             have documentation to show all required health and
requirements for managing center safety and health          safety inspections and committee meetings were
programs?                                                   conducted.

3. Did ResCare ensure compliance with Job Corps             Additionally, ResCare did not always ensure
requirements for reporting performance?                     compliance with Job Corps requirements for reporting
                                                            performance for two of three areas reviewed – student
In addition, in response to hotline complaints, we added    CTT completions and student OBS. For CTT
an objective:                                               completions, ResCare did not ensure completions were
                                                            consistent with Job Corps requirements. For student
4. Did the hotline complaints alleging improper practices   OBS, ResCare did not ensure students were separated
related to student misconduct, Career Technical             as required.
Training (CTT) completions, student attendance,
student On-Board Strength (OBS) and Outcomes                The hotline complaint allegations related to improperly
Measurement System (OMS) separations at the                 completed training records and unsupported leave
Treasure Island Job Corps center have merit?                categories used to prevent students from separating
                                                            and inflate student OBS had some merit.
Our audit work was conducted at ResCare
headquarters in Louisville, Kentucky; Treasure Island       WHAT OIG RECOMMENDED
Job Corps Center (Treasure Island) in San Francisco,        We made nine recommendations to the National
California; and Miami Job Corps Center (Miami) in           Director, Office of Job Corps. In summary, we
Miami Gardens, Florida.                                     recommended Job Corps direct ResCare to improve
                                                            corporate-level controls and monitoring over all centers
                                                            for financial managing and reporting, improve corporate
READ THE FULL REPORT
                                                            oversight procedures and training to ensure compliance
To view the report, including the scope, methodology,
                                                            with FFBs and significant incident reporting
and full agency response, go to:
                                                            requirements, and implement corrective action plans
http://www.oig.dol.gov/public/reports/oa/2010/
                                                            when PRH non-compliance is identified during data
26-10-002-01-370.pdf
                                                            integrity audits.

                                                            The Interim National Director, Office of Job Corps fully
                                                            concurred with six recommendations and concurred-in-
                                                            part with three recommendations.
                             U. S. Department of Labor – Office of Inspector General


                      ResCare, Inc. Headquarters
                         Louisville, Kentucky




 Miami Job Corps Center                       Treasure Island Job Corps Center
     Miami, Florida                              San Francisco, California




                                                                             ResCare
                                                                             Resource Center,
                                                                             Louisville, KY




                                                                    Miami Job Corps
                                                                    Center, Miami, FL
Treasure Island Job
Corps Center,
San Francisco, CA




                                                    Performance Audit of ResCare, Inc.
                                                          Report No. 26-10-002-01-370
        U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                               Performance Audit of ResCare, Inc.
                                     Report No. 26-10-002-01-370
                                                     U. S. Department of Labor – Office of Inspector General



Table of Contents
Assistant Inspector General’s Report ......................................................................... 1

Results In Brief .............................................................................................................. 2

Objective 1 —   Did ResCare ensure compliance with Job Corps requirements
for managing and reporting financial activity? .......................................................... 4
         Finding 1 — ResCare did not always ensure compliance with requirements
                     for managing and reporting financial activity for one of the
                     three areas reviewed — non-personnel expenses............................ 4

Objective 2 —    Did ResCare ensure compliance with Job Corps requirements
for managing center safety and health programs? .................................................... 9
         Finding 2 — ResCare did not always ensure compliance with Job Corps
                     requirements for managing center safety and health programs
                     for each of the three areas reviewed — student misconduct,
                     safety inspections and safety committee meetings. .......................... 9

Objective 3 —      Did ResCare ensure compliance with Job Corps requirements
for reporting performance?........................................................................................ 15
         Finding 3 — ResCare did not always ensure compliance with Job Corps
                     requirements for reporting performance for two of three areas
                     reviewed — student CTT completions and student OBS. ............... 15

Objective 4 —    Did the hotline complaints alleging improper practices related
to student misconduct, CTT completions, student attendance and student OBS,
and OMS separations at the Treasure Island Job Corps center have merit? ........ 22
         Finding 4 — Five of seven hotline complaint allegations directed at the
                     Treasure Island Job Corps Center had some merit. ....................... 22

Recommendations ...................................................................................................... 26

Exhibits                                                                                                                     29
         Exhibit 1 CYs 2007 – 2008 Imprest Fund Expenses at Treasure Island and
                     Miami .............................................................................................. 31

Appendices 33
         Appendix A Background ..................................................................................... 35
         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 37
         Appendix C Acronyms and Abbreviations .......................................................... 47
         Appendix D ResCare Response to Draft Report ................................................ 49
         Appendix E Job Corps Response to Draft Report .............................................. 59
         Appendix F Acknowledgements ......................................................................... 63

                                                                                     Performance Audit of ResCare, Inc.
                                                                                           Report No. 26-10-002-01-370
        U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                               Performance Audit of ResCare, Inc.
                                     Report No. 26-10-002-01-370
                                                 U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                              Office of Inspector General
                                                      Washington, D.C. 20210




March 3, 2010

                                Assistant Inspector General’s Report


Lynn A. Intrepidi
Interim National Director
Office of Job Corps
200 Constitution Avenue, NW
Washington, D.C. 20210

The Office of Inspector General (OIG) conducted a performance audit of ResCare,
Incorporated (ResCare). ResCare was under contract with Job Corps to operate 17 Job
Corps centers for the Department of Labor (DOL). 1 Job Corps requires its center
operators to establish procedures and conduct periodic center audits to ensure integrity,
accountability, and prevention of fraud and program abuse. We initially planned to
pursue three audit objectives during our audit. However, in response to hotline
complaint allegations, we added a fourth objective to determine the validity of
allegations that ResCare officials engaged in improper practices at the Treasure Island
Job Corps Center.

The audit objectives were to answer the following questions:

    1. Did ResCare ensure compliance with Job Corps requirements for managing and
       reporting financial activity?

    2. Did ResCare ensure compliance with Job Corps requirements for managing
       center safety and health programs?

    3. Did ResCare ensure compliance with Job Corps requirements for reporting
       performance?

    4. Did the hotline complaints alleging improper practices related to student
       misconduct, Career Technical Training (CTT) completions, student attendance,
       student On-Board Strength (OBS) and Outcomes Measurement System (OMS)
       separations at the Treasure Island Job Corps center have merit?

This report covers our audit work conducted at ResCare’s corporate headquarters in
Louisville, Kentucky; the Treasure Island Job Corps Center (Treasure Island) in

1
 ResCare lost the bids to operate the Treasure Island and Pittsburgh Job Corps centers (Pittsburgh) in 2009. The
contract for Treasure Island expired on May 31, 2009, and the contract for Pittsburgh expired on June 30, 2009. As of
July 1, 2009, ResCare was under contract to operate 15 centers for DOL.

                                                                                Performance Audit of ResCare, Inc.
                                                          1                           Report No. 26-10-002-01-370
                                                U. S. Department of Labor – Office of Inspector General


San Francisco, California; and the Miami Job Corps Center (Miami) in Miami Gardens,
Florida. Additional background information is contained in Appendix A.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our audit scope, methodology and criteria are detailed in Appendix B.

RESULTS IN BRIEF

ResCare did not ensure compliance with Job Corps requirements for managing and
reporting financial activity for one of three areas reviewed — non-personnel expenses.
During contract years (CY) 2007-2008, Treasure Island and Miami charged unallowable
costs totaling $116,794 to Job Corps. 2 These costs included $65,553 in compensation
to the Treasure Island Center Director (CD) for personal housing (25 months) and travel
expenses. ResCare did not obtain required Job Corps approvals and reported the costs
to Job Corps as office and staff travel/training expenses. This occurred despite the fact
that in 2005 the OIG reported ResCare overcharged Job Corps for compensation paid
to a prior Treasure Island CD. Additionally, Treasure Island and Miami could not provide
documentation to support expenses charged to Job Corps totaling $51,241, which
included payments for consultant services and food products. Treasure Island and
Miami also did not comply with ResCare policy and its center standard operating
procedures (SOP) by improperly processing transactions for goods and services
through its imprest funds. These transactions bypassed ResCare’s financial controls,
which included corporate headquarters’ review of purchase transactions.

ResCare did not ensure compliance with Job Corps requirements for safety and health
in each of the three areas we reviewed — student misconduct, safety inspections, and
safety committee meetings. Specifically, Treasure Island and Miami did not always
convene fact-finding boards (FFB) as required for students suspected of serious
misconduct, such as possession of drugs and sexual harassment on center. Miami also
did not always report significant incidents, such as physical assault or possession of a
weapon on center, to Job Corps as required. Additionally, Miami did not have
documentation to show it conducted all of its required health and safety observations
and inspections, or committee meetings. Consequently, these actions hindered
ResCare’s and Job Corps’ ability to monitor center safety and ensure significant student
misconduct was handled timely and appropriately.

ResCare did not ensure compliance with Job Corps requirements for reporting
performance for two of the three areas reviewed for Program Year (PY) 2007 — student
CTT completions and student OBS, a measure of a center’s ability to operate at full

2
  We reviewed the most recently completed contract years for Treasure Island (February 1, 2008, through January 31,
2009) and Miami (November 1, 2007, through October 31, 2008). Additionally, we reviewed consultant files and lease
agreements at Treasure Island, which included transactions from January 1, 2007, through January 31, 2009.

                                                                            Performance Audit of ResCare, Inc.
                                                        2                         Report No. 26-10-002-01-370
                                                  U. S. Department of Labor – Office of Inspector General


capacity. 3 For CTT completions, Treasure Island and Miami did not ensure all students
Training Achievement Records (TAR) were completed as required by Job Corps. For
student OBS, attendance and reported leave were not documented as required by Job
Corps policy at Treasure Island and Miami. As a result, students should have been
separated from the centers at an earlier date and should not have been included in the
respective center’s OBS calculation after that date.

Five of seven hotline complaint allegations, all directed to Treasure Island, had some
merit. Those five allegations were (1) student TARs were not properly completed; (2)
student security trade TARs were not properly completed; (3) student assistants were
performing instructor signoffs on security trade TARs; (4) certain TARs were not always
completed in compliance with ResCare’s early completer policy; and (5) unsupported
leave categories (e.g., administrative, personal) were used to prevent students from
separating at earlier dates and inflate student OBS. The remaining two allegations did
not have merit — (6) Center Safety Officer investigations were manipulated by
management and (7) new student enrollment delayed until second day on center to
manipulate Outcomes Measurement System (OMS) separation numbers.

We attributed weaknesses to inadequate corporate and center procedures, staff not
following established procedures and lack of supervision. Also, ResCare’s corporate
oversight and monitoring did not consistently identify or address the deficient areas
discussed in this report. These control weaknesses compromise program accountability
in these areas and could impact operational decisions made by ResCare and Job Corps
for all centers operated by ResCare.

In response to our draft report, the Interim National Director, Office of Job Corps, stated
that Job Corps will require ResCare to improve corporate-level controls and monitoring
in the areas of financial management and reporting, safety and health programs, and
performance data integrity. Additionally, the Job Corps regional offices will coordinate
with the Regional Contracting Officers to determine the extent of any reimbursements
resulting from the unallowable costs and performance reporting deficiencies we
identified.

ResCare acknowledged in its response to our draft report that deficiencies did occur in
each of the areas we reviewed. However, ResCare disagreed with some of the specific
deficiencies we identified. We continue to conclude that the deficiencies we identified
are valid and management controls need improvement because ResCare did not
provide us with any additional information that would cause us to revise our
conclusions.

Recommendations

We made nine recommendations to the Interim National Director, Office of Job Corps.
In summary, we recommended Job Corps direct ResCare to improve corporate-level


3
    PY 2007 covers July 1, 2007, through June 30, 2008.

                                                                         Performance Audit of ResCare, Inc.
                                                          3                    Report No. 26-10-002-01-370
                                               U. S. Department of Labor – Office of Inspector General


controls and monitoring over its centers to comply with Job Corps requirements in the
following areas:

• Paying for goods and services,
• Convening FFBs,
• Reporting significant incidents to Job Corps,
• Reporting CTT completions,
• Reporting student leave and
• Separating students.

Additionally, we recommended that the Interim National Director require ResCare to
reimburse the government for unallowable costs and liquidated damages (due to
performance reporting deficiencies) we identified; and as needed during follow-up
reviews conducted by Job Corps.

RESULTS AND FINDINGS

Objective 1 — Did ResCare ensure compliance with Job Corps requirements for
              managing and reporting financial activity?

        Finding 1 — ResCare did not always ensure compliance with requirements
                    for managing and reporting financial activity for one of the
                    three areas reviewed — non-personnel expenses.

Based on our audit testing, as described in the scope and methodology in Appendix B,
we found ResCare ensured compliance with Job Corps requirements for managing and
reporting financial activity for two of the three areas we reviewed — personnel expenses
and reporting reimbursable expenses to Job Corps. However, ResCare did not always
ensure compliance with Job Corps requirements for the third area —
non-personnel expenses. During CYs 2007-2008, Treasure Island and Miami charged
unallowable costs totaling $116,794 to Job Corps. 4 These costs included compensation
of $55,474 for the Treasure Island CD’s leased personal residence for 25 months and
$10,079 in personal travel expenses for the CD and his spouse. Furthermore, ResCare
did not solicit Job Corps approval for these specific costs as required and
inappropriately reported the costs to Job Corps as office and staff travel/training
expenses. Job Corps officials told us they would not have approved these costs. This
occurred despite the fact that in 2005 the OIG reported ResCare overcharged Job
Corps for compensation paid to a prior Treasure Island CD. In response to our
recommendation, ResCare reimbursed Job Corps $38,235 in 2005. Additionally, both
Treasure Island and Miami could not provide documentation to support expenses
charged to Job Corps totaling $51,241, which included payments for consultant services
and food products.

4
 We reviewed the most recently completed contract years for Treasure Island (February 1, 2008, through
January 31, 2009) and Miami (November 1, 2007, through October 31, 2008). Additionally, we reviewed consultant
files and lease agreements at Treasure Island, which included transactions from January 1, 2007, through
January 31, 2009.

                                                                          Performance Audit of ResCare, Inc.
                                                       4                        Report No. 26-10-002-01-370
                                               U. S. Department of Labor – Office of Inspector General



Treasure Island and Miami also did not comply with ResCare policy and its center SOP
by improperly processing transactions for goods and services through its imprest funds.
These imprest fund transactions bypassed ResCare’s financial controls, which included
corporate headquarters’ review of purchase transactions.

Unallowable Costs Charged for Center Director’s Compensation

ResCare charged unallowable costs of $65,553 to Job Corps for the Treasure Island
CD’s personal housing and travel expenses. ResCare’s operating contract for Treasure
Island prohibited payments for rental facilities without Job Corps Regional Office
approval. 5 Additionally, the Federal Acquisition Regulation (FAR) and the contract did
not allow reimbursement for the cost of personal travel. 6

The CD for Treasure Island served in this position from January 2007 until ResCare’s
contract to operate Treasure Island expired in May 2009. During this period, the CD
maintained his home in Atlanta, Georgia. For the period January 2007 through
January 2009, ResCare inappropriately charged Job Corps for the CD’s leased
personal residence in San Francisco, California for 25 consecutive months. These
costs, which totaled $55,474, were improperly charged and reported as an office
expense for Treasure Island. ResCare acknowledged the total amount paid for the CD’s
personal housing expenses in San Francisco was unallowable. ResCare informed us
that the personal housing expense was charged as an office expense by mistake.
ResCare will also credit $55,474 to Job Corps and increase its review of lease and rent
accounts to ensure all costs are charged correctly.

ResCare also charged $10,079 in personal travel expenses for the CD and his spouse
to travel to and from their home in Atlanta seven times from May 2008 through January
2009. ResCare charged and reported these costs as staff travel and training expenses
even though the CD was not on official business and his spouse was not a Treasure
Island employee. These costs of $10,079 for the CD’s personal travel expenses were
not allowable charges to Job Corps and were prohibited by the terms of its operating
contract and the FAR. ResCare explained that the center was in the last option year of
the contract and the CD was reluctant to relocate his family to the San Francisco area
until the contract had been re-awarded. ResCare considered the cost of the trips a
necessary business expense in order to retain the CD for Treasure Island. ResCare
acknowledged it erred in charging these expenses to Job Corps and will credit $10,079
to Job Corps.

In addition, ResCare did not obtain Job Corps approval for any of these costs as
required, and Job Corps officials told us they would not have been approved. These
conditions occurred because ResCare had not established effective controls to ensure
compliance with Job Corps requirements, contract provisions, and the FAR, and
resulted in $65,553 in unallowable costs charged to Job Corps. Moreover, this occurred

5
    DOL Operating Contract DOLJ04SA00001 (February 1, 2004), Section H.23.
6
    FAR 31.205-46 and DOL Operating Contract DOLJ04SA00001 (February 1, 2004), Section H.5.

                                                                         Performance Audit of ResCare, Inc.
                                                       5                       Report No. 26-10-002-01-370
                                                U. S. Department of Labor – Office of Inspector General


despite the fact that in 2005 the OIG previously reported ResCare overcharged Job
Corps for compensation paid to a prior Treasure Island CD. In response to our
recommendation, ResCare reimbursed Job Corps $38,235 in 2005. 7

Inadequate Documentation to Support Center Expenses

ResCare could not provide documentation to show Treasure Island and Miami received
all goods and services for certain expenses charged to Job Corps during CYs 2007-
2008, and whether these expenses were appropriate.

Standards for Internal Control in the Federal Government states that all transactions
and other significant events need to be clearly documented, and documentation should
be readily available. 8 The FAR provides that fees for services rendered are allowable
only when supported by evidence of the nature and scope of the service furnished.
Evidence necessary to determine that work performed is proper and does not violate
law or regulation shall include:

    •   Details of all agreements (e.g., work requirements, rate of compensation, and
        nature and amount of other expenses, if any) with the individuals or organizations
        providing the services and details of actual services performed;
    •   Invoices or billings submitted by consultants, including sufficient detail as to the
        time expended and nature of the actual services provided; and
    •   Consultants’ work products and related documents, such as trip reports
        indicating persons visited and subjects discussed, minutes of meetings, and
        collateral memoranda and reports.” 9

The FAR further requires adequate support to authorize all invoice payments, including:

    •   Contract number or other authorization for supplies delivered or services
        performed;
    •   Description of supplies delivered or services performed;
    •   Quantities of supplies received and accepted or services performed; and
    •   Date supplies delivered or services performed. 10

We judgmentally selected 117 of 9,509 non-personnel expense transactions at
Treasure Island and Miami. This sample represented $801,533 or approximately 7.3
percent of the aggregate non-personnel expenses reported by these centers for CYs
2007-2008. 11 Our audit showed ResCare did not have adequate assurance to show

7
  Performance Audit of Job Corps Center Operating Costs, Report No. 03-05-004-03-370, March 31, 2005.
8
  U.S. Government Accountability Office, GAO/AIMD-00-21.3.1 (Washington, D.C.: November 1999).
9
  FAR 31.205-33(f).
10
   FAR 32.905(c).
11
   For Treasure Island, we selected 63 of 5,292 transactions, representing $455,466 or 5.6 percent of the total
transactions, processed for Treasure Island during their tested contract year. Adequate assurance was not provided
to support 6, or 9.5 percent, of these transactions. For Miami, we selected 54 of 4,217 transactions, representing
$346,067 or 12.1 percent of the total transactions, processed at Miami during their tested contract year. Adequate
assurance was not provided to support 4, or 7.4 percent, of these transactions.

                                                                            Performance Audit of ResCare, Inc.
                                                         6                        Report No. 26-10-002-01-370
                                                 U. S. Department of Labor – Office of Inspector General


Treasure Island and Miami received all goods and services for 10, or 8.5 percent, of the
117 non-personnel transactions tested. These expenses, which excluded the personal
housing and travel expenses for the Treasure Island’s CD, totaled $51,241. For
example:

    •    Treasure Island inappropriately charged Job Corps $23,995 for consultant fees
         paid to a former center employee. ResCare told us the consultant’s business
         purpose was to provide training and support at the center. However, the
         consultant’s contract and corresponding invoices did not state the actual services
         provided to Treasure Island, including the consultant’s specific duties and
         deliverable work products.

    •    Treasure Island overcharged Job Corps $8,283 for services paid to a contracted
         vendor. Specifically, Treasure Island was invoiced and subsequently charged
         Job Corps $60,311 for professional staff services even though the accompanying
         staffing reports and time sheets supported only $52,028.

    •    Treasure Island and Miami overcharged Job Corps $7,105 for food service costs.
         Both centers were unable to reconcile differences found with the food items
         ordered, food items received, and the invoiced amounts. Using the records
         provided (e.g., purchase orders, receiving reports, and invoices), Treasure Island
         and Miami respectively overcharged Job Corps $4,275 and $2,830 for these
         services.

    •    Treasure Island overcharged Job Corps $7,295 to reimburse petty cash
         expenses. The center was unable to provide documentation (e.g., invoices,
         receipts, student sign-offs) to show the expenses, which included charges for
         student meals, transportation and advances were appropriate.

These conditions occurred because ResCare lacked the necessary controls to ensure
compliance with the FAR requirements, which resulted in unallowable costs of $51,241
charged to Job Corps. 12

Improper Use of Imprest Funds at Centers

Treasure Island and Miami also did not comply with ResCare policy and its center SOP
by improperly processing transactions for goods and services through its imprest funds.
ResCare’s corporate and center SOP restricted the use of imprest funds for expenses
too urgent to wait for the normal accounts payable system such as emergencies,
student separation advances, travel advances, and weekend activities. 13


12
   ResCare acknowledged $220 spent on late charges and one purchase transaction that lacked adequate supporting
documentation was unallowable.
13
   Imprest funds at ResCare centers were established with ResCare funds and not by an advance of funds from DOL.
As a result, these funds do not meet the definition of “imprest funds” per Part 638.200 of Code of Federal Regulations
Title 20 and are not subject to the respective restrictions.

                                                                              Performance Audit of ResCare, Inc.
                                                          7                         Report No. 26-10-002-01-370
                                               U. S. Department of Labor – Office of Inspector General


As part of our audit of non-personnel expenses, we judgmentally selected 19 imprest
fund transactions totaling $40,495 or approximately 8.8 percent of the aggregate
imprest fund expenses of $462,606 processed by both centers for CYs 2007-2008. 14
We found 11 of these 19 imprest fund transactions, totaling $37,187, were improperly
processed through both centers’ imprest funds instead of the appropriate financial
systems. These transactions were outside the scope of ResCare’s intended use for its
imprest funds and bypassed ResCare’s financial controls, which included corporate
headquarters’ review of purchase transactions and adjusting journal entries. For
example:

     •   Reimbursement of staff relocation expenses totaling $4,198, which bypassed
         required corporate approval and use of corporate relocation services;

     •   Payments for staff incentives (e.g., gift purchase cards), cellular phone service,
         past due invoices, late fees, supplies, and other student costs totaling $8,990,
         which bypassed corporate account payable controls; and

     •   Adjusting journal entries totaling $24,000, which bypassed corporate financial
         management controls for approving and making the entries.

These conditions occurred because of a lack of management emphasis at corporate
and center levels to ensure compliance with ResCare’s procurement SOP. Processing
transactions for goods and services in compliance with its corporate and center SOP,
which would include corporate office reviews of non-urgent purchase expenses, would
provide increased assurance that all purchase expenses were reasonable and
allowable and for goods and services actually received. See Exhibit 1 for detail of
$462,606 in Imprest Fund expenses processed by both centers.

Controls Over Managing and Reporting Financial Activity Need Improvement

The Standards for Internal Control in the Federal Government state that internal control
is a major part of managing an organization and provides an overall framework for
establishing and maintaining such controls. The standards identify internal control as
the first line of defense in safeguarding assets and preventing and detecting errors and
fraud. The internal control weaknesses we found at the corporate and center levels
increased the risk of possible fraud, theft, and misuse of vulnerable negotiable assets
and resulted in unauthorized disbursements. As such, ResCare needs to improve its
controls over managing and reporting financial activity. The inappropriate costs of
$116,794 identified in this report and related internal control deficiencies occurred
because ResCare had not established effective controls to ensure center compliance
with Federal regulations, contract agreements, Job Corps requirements and ResCare’s
policies.

14
  These 19 imprest fund transactions were batched into 5 of the 117 non-personnel expense transactions we
reviewed. Specifically, we reviewed 3 non-personnel expense transactions, which included 8 imprest fund
transactions at Treasure Island, and 2 non-personnel expense transactions, which included 11 imprest fund
transactions at Miami.

                                                                           Performance Audit of ResCare, Inc.
                                                        8                        Report No. 26-10-002-01-370
                                     U. S. Department of Labor – Office of Inspector General



In response to our draft report, Job Corps will require ResCare to improve its corporate-
level controls and monitoring for managing and reporting financial activity, adhere to
corporate and center policies regarding the use of imprest funds, and ensure
appropriate financial systems are established. In addition, Job Corps will review the
current PRH policy to determine if revisions will be needed regarding imprest funds.
Additionally, Job Corps will determine the extent of any reimbursements resulting from
unallowable costs identified in our report and additional unallowable costs at Miami, as
well as assess any liquidated damages where necessary.

ResCare, in response to our draft report, agreed that the $65,553 charged to Job Corps
for the Treasure Island CD’s personal housing and travel expenses were unallowable
and will credit Job Corps for the unallowable costs. ResCare disagreed with $32,278 of
the $51,241 unallowable costs we identified as unsupported center expenses. ResCare
also did not agree that its centers improperly used imprest funds; or that controls over
managing and reporting financial activity needed improvement. However, ResCare did
not provide sufficient information or documentation to cause us to change our
conclusions. We continue to conclude that ResCare needs to improve its controls
because of the $116,794 in unallowable charges to Job Corps we identified and to
prevent future unallowable charges to Job Corps.

Objective 2 — Did ResCare ensure compliance with Job Corps requirements for
              managing center safety and health programs?

      Finding 2 — ResCare did not always ensure compliance with Job Corps
                  requirements for managing center safety and health programs
                  for each of the three areas reviewed — student misconduct,
                  safety inspections and safety committee meetings.

ResCare can improve its oversight to ensure compliance with Job Corps requirements
for safety and health in each of the three areas we reviewed — student misconduct,
safety inspections and safety committee meetings. Specifically, Treasure Island and
Miami did not always convene FFBs as required for students suspected of serious
misconduct, such as possession of drugs and sexual harassment on center. Miami also
did not always report significant incidents, such as physical assault or possession of a
weapon on center to Job Corps as required. We also found Miami did not have
documentation to show it conducted all of its required health and safety observations
and inspections, or committee meetings.

These deficiencies occurred, in part, because ResCare did not provide sufficient
oversight to ensure Treasure Island and Miami adhered to corporate and center policies
to address serious student misconduct, including convening FFBs and reporting
significant incidents, and conduct required safety program activities at each center in
compliance with Job Corps requirements. Consequently, ResCare’s and Job Corps’
ability to monitor center safety and ensure significant student misconduct was handled



                                                            Performance Audit of ResCare, Inc.
                                            9                     Report No. 26-10-002-01-370
                                           U. S. Department of Labor – Office of Inspector General


timely and appropriately was hindered, potentially placing other students and staff at
risk.

Appropriate Actions Not Always Taken to Address Serious Student Misconduct

FFBs Not Convened or Not Convened Timely

Treasure Island and Miami did not always convene FFBs as required for students
suspected of serious misconduct, such as possession of drugs and sexual harassment
on center. The students were allowed to stay on center without consideration of
appropriate disciplinary action, including removal from the center. As a result, problem
students were allowed to stay on center, potentially placing other students and staff at
risk.

Job Corps’ Policy and Requirements Handbook (PRH) required center operators to
conduct FFBs to determine appropriate center actions for Level I and II infractions as
follows:

       •    Level I Infractions – FFBs must be convened within three training days.
            Examples of Level I infractions include drug use, physical assault and sexual
            assault.

       •    Level II Infractions – FFBs must be convened within five training days. Examples
            of Level II infractions include sexual harassment, fighting, threat of assault and
            pattern of inappropriate behavior. 15

We reviewed the PY 2007 security logs at Treasure Island and Miami for events
involving potential Level I and II infractions to determine whether FFBs were convened
for these security events and judgmentally selected 18 events to test (10 events at
Treasure Island and 8 events at Miami). Our review showed FFBs were not convened
for 7, or 38.9 percent, of 18 events tested as required by the PRH. Specifically, FFBs
were not conducted at Treasure Island for 5 of 10 events and at Miami for 2 of 8 events.
Following are examples of security log entries involving potential serious student
misconduct:

       •    At Treasure Island, a student was caught using or possessing drugs. The PRH
            classified possession or use of drugs as a Level I infraction. The center did not
            take appropriate action and convene an FFB as required.

       •    At Treasure Island, a student alleged sexual harassment by two other students.
            The PRH classified sexual harassment as a Level II infraction. The center did not
            take appropriate action and convene an FFB as required.

We also reviewed all reported Level I and II infractions during PY 2007 for Treasure
Island and Miami to determine whether the centers convened FFBs within three and five
15
     PRH Chapter 3, Exhibit 3-1.

                                                                  Performance Audit of ResCare, Inc.
                                                 10                     Report No. 26-10-002-01-370
                                                    U. S. Department of Labor – Office of Inspector General


training days, respectively, as required by the PRH. We found FFBs were not convened
timely for 64 of 108 reported Level I and II infractions for both centers. 16 As a result, the
centers exceeded the established timeframes by an average of 24 days. Job Corps
noted similar timeliness concerns related to corrective actions taken to address student
misconduct at Treasure Island. Timely FFBs are needed to ensure fair and appropriate
consideration of disciplinary action, including removal from the center. Moreover,
problem students may be allowed to stay on center, potentially placing other students
and staff at risk. Our test results are summarized in Table 1 below:

      Table 1: FFBs Not Convened Timely
                                                                  Number of Students
                                                              (Average Days in Violation)
                                                        Treasure
      PRH Violation                                        Island           Miami                         Totals
      Level I Infraction – FFB not
      convened within 3 training                                7                         8                  15
      days                                              (48 days)                 (11 days)            (28 days)
      Level II Infraction – FFB not
      convened within 5 training                              44                          5                  49
      days                                              (24 days)                 (13 days)            (23 days)
                                                              51                        13                   64
      Totals                                            (27 days)                 (12 days)            (24 days)

Significant Incidents Not Always Reported to Job Corps

Miami did not take appropriate actions to ensure all significant incidents were reported
to Job Corps. The PRH requires centers to report all significant incidents to Job Corps,
including physical assault, indication that a student is a danger to himself/herself or
others, and any incidents involving illegal activity. 17

During our audit of Level I infractions at both centers, we found three of four significant
incidents that resulted in disciplinary separations at Miami that were not reported to Job
Corps as required. These incidents involved a physical assault and weapons on
campus. The inaccurate reporting hindered Job Corps’ ability to monitor center safety,
to ensure significant student misconduct was handled appropriately, and to respond to
negative press regarding such incidents.

Hotline Complaint Allegations Related to Student Misconduct

During the audit, we performed work to address a hotline complaint allegation that
Center Safety Officer investigations at Treasure Island were manipulated by
management. We found no evidence that Treasure Island or ResCare engaged in this

16
     Treasure Island and Miami respectively reported 67 and 41 combined Level I and II infractions.
17
     PRH Chapter 5.5.

                                                                                Performance Audit of ResCare, Inc.
                                                            11                        Report No. 26-10-002-01-370
                                       U. S. Department of Labor – Office of Inspector General


improper practice. Our methodology for validating the merit of this complaint allegation
is summarized in Appendix B.

Improved Oversight Needed to Ensure Compliance with Student Misconduct
Requirements

These deficiencies occurred, in part, because ResCare did not ensure Treasure Island
and Miami adhered to ResCare’s corporate and center policies to address serious
student misconduct, which included convening FFBs and reporting significant incidents
in compliance with Job Corps requirements. Our audit indicated a lack of supervisory
oversight performed by center management at both centers. ResCare and both centers
had established SOP for addressing student misconduct consistent with PRH
requirements. Management for both centers cited staff turnover in key positions and
lack of training attributed to the deficiencies we identified. Miami officials told us that
despite on-going training, center staff sometimes enter intermediate and minor
misconduct as serious incidents, which, in some cases, resulted in an over reporting of
Level I and II infractions to Job Corps. During our audit, we found two instances of Level
II infractions incorrectly reported as Level I infractions at Miami. In addition, both centers
did not have processes in place to properly close out security log entries to show
potential student misconduct incidents were addressed appropriately and timely.
Consequently, these actions hindered the ability of ResCare and Job Corps to monitor
center safety and ensure significant student misconduct was handled timely and
appropriately, potentially placing other students and staff at risk. Safety weaknesses
also impact Job Corps and ResCare management decision-making.

Required Safety and Health Observations and Inspections Not Always Conducted

Miami did not have documentation to show it conducted all of its required safety and
health observations and inspections, or committee meetings. The PRH requires centers
to perform and document the following:

   • Daily Observations of cafeterias, dormitories, snack bars, canteens,
      classrooms/shops, motor vehicles, all equipment to be used by students and
      staff, the gymnasium, exercise equipment and frequently used recreation areas.

   • Weekly Inspections of all food service facilities, including cafeterias, snack bars
      and canteens, and gymnasiums, exercise equipment and swimming pools during
      times of operation.

   • Monthly Inspections of dormitories, vocational shops, academic classrooms,
      health services, administrative offices, warehouses and other buildings occupied
      by students and staff.




                                                              Performance Audit of ResCare, Inc.
                                             12                     Report No. 26-10-002-01-370
                                          U. S. Department of Labor – Office of Inspector General


       •   Quarterly Environmental Health Inspections of food service facilities, residential
           facilities and training facilities. 18

ResCare could not provide the necessary documentation to support 2,766, or 98.7
percent, out of 2,803 required observations and inspections as noted in Table 2 below:

Table 2: Required Safety and Health Observations and Inspections Not
Documented
                                                         Number of
                                          Number of        Required
                                            Required Observations/                         Total
                                        Observation/    Inspections                     Missing
PRH Requirement                          Inspections   Documented                            (%)
1) Daily (365 days x 7 observation             2,555              0                        2,555
   areas)                                                                                (100%)
2) Weekly (52 weeks x 2 inspection               104              1                          103
   areas)                                                                                 (99%)
3) Monthly (12 months x 11 inspection            132             28                          104
   areas)                                                                               (78.8%)
4) Quarterly (4 quarters x 3 inspection           12              8                            4
   areas)                                                                               (33.3%)
                                                                                           2,766
Totals                                                   2,803                  37      (98.7%)

Job Corps similarly found Miami was deficient with its required weekly and monthly
inspections.

These conditions occurred, in part, because ResCare had not established SOP for
conducting all required observations and inspections at Miami. While Job Corps does
not require SOP for conducting observations and inspections, such SOP would have
provided center staff with guidance needed to comply with Job Corps requirements.
Additionally, ResCare and center management did not provide adequate monitoring and
supervision to ensure the observations and inspections were performed and
documented as required. Consistent inspections and observations will increase the
center’s ability to identify and correct safety and health concerns at the earliest
opportunity. Without adequate documentation of these activities, ResCare cannot
provide adequate assurance that its centers’ safety and health programs are working
effectively to protect Job Corps students. Safety and health program weaknesses also
impact Job Corps and ResCare management decision-making.

ResCare agreed it did not have the necessary documentation to show required safety
and health observations and inspections were performed at Miami. However, ResCare
told us that all of the required observations and inspections had been performed at the
center during PY 2007. They said turnover in key personnel hindered Miami’s efforts to

18
     PRH Chapter 5.13 and Appendix 505.

                                                                 Performance Audit of ResCare, Inc.
                                                13                     Report No. 26-10-002-01-370
                                         U. S. Department of Labor – Office of Inspector General


document these observations and inspections. ResCare agreed with the importance for
Miami to have effective controls in place to ensure all required safety and health
observations and inspections were performed and documented.

Required Safety Committee Meetings Not Always Conducted

The PRH required centers to establish a Safety and Health Committee to:

       •   Review reported accidents, injuries and illnesses;

       •   Consider the adequacy of actions to prevent recurrence of such accidents,
           injures or illnesses;

       •   Plan, promote, and implement DOL and Job Corps safety and occupational
           health programs; and

       •   Meet monthly and maintain records of the minutes for at least three years. 19

ResCare was not able to provide documentation to show required monthly Safety and
Health Committee meetings were consistently conducted at Miami during PY 2007. The
center did not maintain the required Safety and Health Committee meeting minutes for
3, or 25 percent, of the 12 months. These conditions occurred, in part, because
ResCare had not established SOP for conducting and documenting the meetings at
Miami. While Job Corps does not require SOP for committee meetings, SOP at Miami
would have provided center staff with the guidance needed to comply with the Job
Corps requirements. Additionally, ResCare corporate and center management did not
provide adequate monitoring to ensure the committee meetings were held and
documented as required. ResCare told us that the required meetings were held; but not
always documented and maintained. Regular Safety and Health Committee meetings
will increase the center’s ability to identify and correct safety and health concerns at the
earliest opportunity. Without adequate documentation of these activities, ResCare
cannot provide adequate assurance that its centers’ safety and health programs are
working effectively to protect Job Corps students. Safety and health program
weaknesses also impact Job Corps and ResCare management decision-making.

In response to our draft report, Job Corps will require ResCare to improve safety and
health program controls and monitoring over all ResCare centers and periodically
validate the management of the safety and health program. ResCare will also be
advised to submit revised SOPs for Job Corps review and approval to improve controls
and monitoring for convening FFBs for Level I and II infractions, reporting significant
incidents, and recording of safety inspections and committee meeting minutes. In
addition, Job Corps will instruct ResCare to periodically validate Miami’s safety and
health program and request training verification and SOPs from Miami to reflect
improvements in these areas.

19
     PRH Appendix 505.

                                                                Performance Audit of ResCare, Inc.
                                               14                     Report No. 26-10-002-01-370
                                     U. S. Department of Labor – Office of Inspector General



ResCare disagreed appropriate actions were not always taken to address serious
student misconduct at Treasure Island and Miami. Specifically, ResCare asserted FFBs
were conducted timely and the security log entries used as examples in the report were
adequately addressed. ResCare also disagreed with our conclusion that required safety
and health observations, inspections and committee meetings were not always
conducted. However, ResCare did not provide any additional information or
documentation that caused us to change our conclusions.

Objective 3 — Did ResCare ensure compliance with Job Corps requirements for
              reporting performance?

      Finding 3 — ResCare did not always ensure compliance with Job Corps
                  requirements for reporting performance for two of three areas
                  reviewed — student CTT completions and student OBS.

Based on our audit testing, ResCare ensured compliance for one of three reporting
areas reviewed — General Educational Development (GED)/High School Diploma
(HSD) attainment. However, ResCare can improve its centers’ performance reporting
for the other two areas reviewed for Treasure Island and Miami — student CTT
completions and student OBS, a measure of a center’s ability to operate at full capacity.

For CTT completions, students at Treasure Island and Miami did not complete all of the
training tasks required by Job Corps. In addition, student OBS at both centers was
overstated because students were placed on unsupported leave and students were not
separated as required. Incomplete tasks could impact a student’s ability to obtain and
maintain employment in the vocation in which the student was trained. Inaccurate
performance reporting could also impact management decision-making, incentive
payments and option years awarded to contracted center operators. Furthermore,
ResCare may owe DOL liquidated damages of $24,750 for the CTT completions that
were in non-compliance with Job Corps policy and $7,786.44 for the overstatement of
student OBS. See Finding 4 for additional liquidated damages as a result of work
performed in response to hotline complaints alleging improper practices related to
student CTT completions, attendance and OBS.

These deficiencies occurred because ResCare’s controls over these areas need
improvement. The control weaknesses included inadequate center procedures and lack
of supervision. Additionally, ResCare’s corporate oversight did not effectively address
the deficiencies we identified in these areas.

CTT Completions Not Always in Compliance

Treasure Island and Miami reported students with incomplete TARs as CTT completers
in their reported performance for PY 2007. The PRH requires centers to (1) document
that students are proficient at all tasks listed on TARs, (2) ensure student progress is



                                                            Performance Audit of ResCare, Inc.
                                           15                     Report No. 26-10-002-01-370
                                        U. S. Department of Labor – Office of Inspector General


documented on TARs as progress occurs and (3) obtain approval for changes to tasks
listed on the TARs from the Job Corps National Director. 20

We reviewed a random statistical sample of 118 out of the 816 students reported by
both centers as CTT completers during PY 2007. Our review showed 33, or 28 percent,
of the 118 TARs tested in our statistical sample were not consistent with PRH
requirements because one or more tasks were not completed or annotated correctly.
The TAR deficiencies found included tasks not documented as having been completed
(e.g., lacked required instructor/student sign-offs, completion dates, and proficient
performance ratings); and tasks were excluded without proper approval from Job Corps.

For example:

     •   At Miami, one TAR had 81 tasks left blank and another TAR had 29 tasks with
         missing performance ratings.

     •   At Treasure Island, two painter TARs showed students watched an instructional
         video instead of demonstrating the safe use of scaffold equipment as required by
         Job Corps. Treasure Island did not obtain Job Corps approval for eliminating the
         hands-on training as required.

     •   At Miami, five landscape technician TARs each contained a required task that
         was not completed because the center did not have the necessary equipment for
         the students to complete the task. In lieu of providing the training, the instructors
         indicated these tasks were not applicable. Miami did not obtain Job Corps
         approval for eliminating the task as required by Job Corps.

Incomplete tasks could impact a student’s ability to obtain and maintain employment in
the vocation in which the student was trained. The PRH stipulated liquidated damages
of $750 be assessed for each improper vocational completion. 21 However, the PRH
also allowed Job Corps discretion when assessing liquidated damages. 22 As such
ResCare may owe $24,750 for the 33 students we identified as having incomplete TARs
during our statistical sample review. Table 3 below summarizes the incomplete TARs
and number of deficiencies we found, as well as our calculation of potential liquidated
damages:




20
   PRH Chapter 3.13.
21
   PRH Chapter 5.1.
22
   PRH Chapter 5.1.

                                                               Performance Audit of ResCare, Inc.
                                               16                    Report No. 26-10-002-01-370
                                                   U. S. Department of Labor – Office of Inspector General




Table 3: 33 TARs Were Not in Compliance (Statistical Sample)
                         Number of Students with Incomplete
Number of                              TARs                                     Liquidated
Incomplete                Treasure                                               Damages
Tasks                        Island      Miami       Totals                 (Totals x $750)
1–2                               6          12          18                      $ 13,500
3–4                               0           3           3                      $ 2,250
5 – 10                            0           3           3                      $ 2,250
11 or more                        4           5           9                      $ 6,750
Totals                           10          23          33                      $ 24,750

Projecting these statistical sample results to the 816 CTT completions reported for PY
2007, we are 90 percent confident that between 136 and 230 of the 816 students did
not complete the vocation as required and between $102,000 and $172,500 may be
owed to DOL for Treasure Island and Miami students with incomplete TARs. 23

Job Corps and ResCare also identified CTT reporting deficiencies at Treasure Island
and Miami. At Treasure Island, Job Corps and ResCare found student TARs were not
completed in compliance with the PRH. At Miami, ResCare found student TARs were
not monitored for quality assurance.

Hotline Complaint Allegations Related to CTT Completions

In response to hotline complaint allegations that student TARs were not always
completed properly or in compliance with ResCare’s early completer policy, we
reviewed an additional 62 judgmentally selected CTT completions at Treasure Island.
Our review showed 38 TARs were not completed as required by Job Corps and an
additional $28,500 in liquidated damages may be warranted. See Finding 4 for the
detailed discussion of the complaint allegations and test results.

Controls Over CTT Completions Need Improvement

While ResCare had internal controls to ensure data reliability at both centers, the
controls were not always working effectively. For example, even though ResCare
established corporate policies to perform audits of completed TARs and those policies
also required center management to provide justifications for early CTT completions,
those corporate policies were not always followed at both centers. In addition, while
both centers established processes via center SOP for instructors and managers to
audit TARs for completeness and accuracy, ResCare did not distribute a standard TAR
audit checklist for centers to use until January 2008. Additionally, the policy to use the
TAR checklist was not put into effect until August 2008. The use of a standardized TAR


23
     The point estimate is 183 students and $137,250.

                                                                          Performance Audit of ResCare, Inc.
                                                         17                     Report No. 26-10-002-01-370
                                               U. S. Department of Labor – Office of Inspector General


audit checklist would have reduced TAR deficiencies found during our audit and added
accountability to the TAR audit process.

During the audit, Job Corps revised its CTT completions policy to ensure students
received the required training while reducing the documentation requirements. Given
Job Corps’ discretion in assessing liquidated damages, and the new policy, Job Corps
needs to determine the amount of liquidated damages ResCare owes the government.

Student OBS Overstated

Treasure Island and Miami overstated student OBS because students were not
separated as required. The PRH established criteria for student attendance and leave,
which included providing assurance that student leave was documented and approved
as required by Job Corps. 24 The PRH further required students to be separated from
the program if unauthorized leave exceeds certain standards. 25

Student attendance was recorded in the Job Corps Center Information System (CIS),
which calculated center OBS. Job Corps defined OBS as an efficiency measure of a
center’s ability to operate at full capacity. The PRH also required center operators to
separate students from the program if the students were absent from training in excess
of certain standards. 26

Random Statistical Sample of Reported AWOL Separations

We reviewed a random statistical sample of 110 out of 417 students with reported
Absent Without Leave (AWOL) separations during PY 2007 for both centers. The PRH
permitted students to be AWOL for no more than 6 consecutive training days, or 12
training days within a 180-day period. Of the 110 student files reviewed, the attendance
and reported leave for 13, or 11.8 percent, were not documented as required by the
PRH. 27 We reviewed the attendance history of AWOL-separated students for
questionable leave patterns (e.g., multiple status changes within a short duration) and
tested the periods of leave for supporting leave documentation. We also determined if
students should have been AWOL-separated from the program at an earlier date for
having unsupported leave. If so, those students should not have been included in the
respective center’s OBS calculation after that date. We determined both Treasure Island
and Miami retained these 13 students 153 days beyond their required termination dates,
in violation of the PRH, which overstated OBS.

Seven or More Consecutive Leave Days Prior to Separation

We reviewed all 42 students with reported leave of seven or more consecutive days
prior to separation during PY 2007 for both centers, as well as 2 students reported with
24
   PRH Chapter 6.1.
25
   PRH Exhibit 6-1.
26
   PRH Chapter 6.4.
27
   Review of 110 AWOL separations found 11 students at Treasure Island and 2 students at Miami with leave not
documented as required by the PRH.

                                                                           Performance Audit of ResCare, Inc.
                                                       18                        Report No. 26-10-002-01-370
                                                 U. S. Department of Labor – Office of Inspector General


excessive AWOL days at Treasure Island. Of the 42 student files reviewed, the
attendance and reported leave for 7, or 16.7 percent, were not documented as required
by the PRH. 28 Based on our review, four of these students should have been separated
at an earlier date because their leave was not supported in accordance with the PRH
and should not have been included in their respective center’s OBS calculation after
that date. We determined that both centers retained these 4 students 32 days beyond
their required termination dates, in violation of the PRH, which overstated OBS. Of the
two students reviewed for excessive AWOL days, the attendance and reported leave for
one was not documented as required by the PRH. 29 Moreover, that student should have
been separated at an earlier date and should not have been included in the respective
center’s OBS calculation after that date. We determined Treasure Island retained this
student 10 days beyond their required termination date, which also overstated OBS.

Separations for Student Misconduct

We also reviewed all 108 Level I and II infractions reported during PY 2007 for Treasure
Island and Miami. The FFBs at both centers determined serious misconduct occurred
and recommended immediate separation for 38 of these students. We determined that
14, or 36.8 percent, of these 38 students were retained 538 days beyond their required
termination dates, in violation of the PRH, which overstated OBS. As a result, Treasure
Island and Miami exceeded the established timeframes by an average of 38.4 days.

Potential Liquidated Damages

The PRH requires the assessment of liquidated damages for failure to comply with
requirements for separating students. ResCare may need to pay a refundable cost to
DOL for each day a student is retained in violation of Job Corps requirements. The daily
refundable costs were calculated using 15 percent of the refundable cost per student
per day, which was $74.20 for Treasure Island and $61.87 for Miami. As a result,
excessive leave day costs (liquidated damages) amounted to $11.13 ($74.20 x 15
percent) and $9.28 ($61.87 x 15 percent) for Treasure Island and Miami, respectively.
The PRH violations and our liquidated damages calculations for the 32 students with
separation violations are summarized in Table 4 below.




28
   We found leave used for 9 of the 42 students did not comply with PRH requirements. One of these students was
included in our statistical sample review results and one student was included in our review of student misconduct. As
such, we reduced the number of exceptions found from nine to seven.
29
   We found two students with leave that did not comply with the PRH. One of these students was included in our
statistical sample. As such, we reduced the number of exceptions found from two to one.

                                                                              Performance Audit of ResCare, Inc.
                                                         19                         Report No. 26-10-002-01-370
                                                     U. S. Department of Labor – Office of Inspector General




Table 4: 32 Students Not Separated as Required
                                                                                Liquidated Damages
                                                                                   (Number of Days x
                                              Number of Students               Excessive Leave Day
                                               (Days in Violation)                              Cost)
                                                                             Treasure
                                           Treasure                             Island         Miami
PRH Violation                                 Island            Miami         ($11.13)        ($9.28)
Student missing supporting                         7                 1
verification for leave                    (108 days)         (11 days)      $1,202.04           $102.08
Student not placed on                              3
leave for valid reason                     (30 days)                  --       $333.90                  --
Student not separated
immediately after decision
by FFB, Behavior Review
Panel and/or Center                                2               17
Director                                  (383 days)        (190 days)      $4,262.79         $1,763.20
Student exceeded PRH
allowable AWOL training                             2
days                                        (11 days)               --         $122.43                  --
                                                  14               18
Totals                                    (532 days)       (201 days)       $5,921.16         $1,865.28

In total, ResCare may owe DOL $7,786.44 ($5,921.16 + $1,865.28) for the 32 students
with separation violations. Projecting our statistical sample results of our AWOL
separation violations (13 of 110) to the 417 students with reported AWOL separations,
we are 90 percent confident that between 37 and 83 of the 417 students did not have
leave documented as required by the PRH and between $4,344 and $9,745 may be
owed to DOL for Treasure Island and Miami students not separated as required by the
PRH. 30

In addition to the liquidated damages, inaccurate performance reporting could also
impact management decision-making, incentive payments and option years awarded to
contracted center operators.

Hotline Complaint Allegations Regarding Unsupported Leave Used at Treasure Island

We also reviewed a hotline complaint allegation directed at Treasure Island related to
student leave and attendance and OBS. Specifically, Treasure Island allegedly used
unsupported administrative leave for family compassion and hardship purposes to
prevent students from separating at earlier dates and inflating OBS. We reviewed
supporting documentation for 34 of 231 students granted administrative leave for family

30
     The point estimate is 60 students and $7,045.

                                                                            Performance Audit of ResCare, Inc.
                                                           20                     Report No. 26-10-002-01-370
                                                U. S. Department of Labor – Office of Inspector General


compassion or hardship purposes at Treasure Island. We found leave granted for 8 of
the 34 students did not adhere to PRH requirements. See Finding 4 for detailed test
results.

Controls Over Student OBS Need Improvement

Our audit indicated a lack of supervisory oversight performed by center management at
both centers. ResCare and both centers had established SOP for leave requirements
consistent with PRH requirements. Despite corporate and center level controls, our
audit found that students at both centers did not always have proper supporting
documentation for leave. At Treasure Island, leave for family compassion or hardship
purposes was required to be approved by the center director or designee. Unsupported
or illegitimate family compassion or hardship leaves was the result of center
management at Treasure Island failing to coordinate with records department staff
responsible for processing leave and counseling staff responsible for requesting leave,
to ensure student leave was for valid reasons and properly supported. At Miami,
corporate and center SOP were established for properly separating students following
FFB recommendations for termination. However, as noted above, the students in our
audit recommended for termination by FFB were not always separated in a timely
manner.

Job Corps and ResCare also identified student leave and OBS deficiencies at Treasure
Island and Miami. At Treasure Island, Job Corps found inadequate documentation to
support student leave and instances where students exceeded PRH AWOL limitations.
ResCare identified similar concerns regarding student leave at both centers.

In response to our draft report, Job Corps will ensure ResCare provides a corrective
actions plan when PRH non-compliance is identified during data integrity audits.
Additionally, Job Corps, in coordination with the Regional Contracting Officers, will
determine the extent of any overstated OBS and CTT completions at Treasure Island
and Miami. 31

ResCare acknowledged several TARs contained errors made by the instructor updating
the TARs and it did not always have the required documentation to support student
leave. ResCare did not agree all of our TAR examples were non-compliant and that
unsupported leave categories prevented students from separating at earlier dates.
However, ResCare did not provide documentation supporting that students were trained
and accounted for as required. As such, we continue to affirm all of our exceptions.




31
 Job Corps’ plan to determine the extent of any overstated OBS and CTT completions at Treasure Island and Miami
was not fully responsive to our recommendation to determine the extent of similar liquidated damages at all ResCare
operated Job Corps centers. We will continue to work with Job Corps to reach agreement on the appropriate
corrective action during the Audit Resolution process.

                                                                            Performance Audit of ResCare, Inc.
                                                        21                        Report No. 26-10-002-01-370
                                                     U. S. Department of Labor – Office of Inspector General


Objective 4 — Did the hotline complaints alleging improper practices related to
              student misconduct, CTT completions, student attendance and
              student OBS, and OMS separations at the Treasure Island Job
              Corps center have merit?

            Finding 4 — Five of seven hotline complaint allegations directed at the
                        Treasure Island Job Corps Center had some merit.

Five of seven hotline complaint allegations, all directed to Treasure Island, had some
merit. Those five allegations were (1) student TARs were not properly completed; (2)
student security trade TARs were not properly completed; (3) student assistants were
performing instructor signoffs on security trade TARs; (4) certain TARs were not always
completed in compliance with ResCare’s early completer policy; and (5) unsupported
leave categories (e.g., administrative, personal) used to prevent students from
separating at earlier dates and inflate student OBS. The remaining two allegations did
not have merit — (6) Center Safety Officer investigations were manipulated by
management and (7) new student enrollment delayed until second day on center to
manipulate OMS separation numbers.

Student TARs Improperly Completed

The allegation that student TARs were not properly completed at Treasure Island had
some merit. As part of our CTT completion testing discussed in Finding 3, we reviewed
a total of 127 out of 611 student TARs supporting CTT completion at Treasure Island
during PY 2007. Our review showed 48, or 37.8 percent, of the 127 TARs tested were
not consistent with PRH requirements because one or more tasks were not completed
or annotated correctly.

Security Trade TARs Improperly Completed

Allegations that student security trade TARs were not properly completed and student
assistants were performing instructor signoffs on security trade TARs had some merit.
We reviewed all of the 62 security trade completers reported during PY 2007. 32 Our
review showed 37, or 59.7 percent, of the 62 TARs tested were not consistent with PRH
requirements because one or more tasks were not completed or annotated correctly.
For example:

       •    Six security trade TARs each contained required tasks that were not completed
            because the center did not have the resources to provide cardiopulmonary
            resuscitation (CPR) and first-aid instruction and certifications. ResCare noted the
            center staff did not have current CPR and first-aid certifications necessary to
            instruct the students during its on-site assessment. In addition, we found 13 other
            security trade TARs completed during this period where the center indicated the
            students completed these tasks. However, ResCare and the center were not able

32
     Six of these 62 security trade students were included in our statistical sample of CTT completers.

                                                                                  Performance Audit of ResCare, Inc.
                                                             22                         Report No. 26-10-002-01-370
                                                 U. S. Department of Labor – Office of Inspector General


         to provide assurance these students received CPR and first-aid instruction and
         certifications as required.

     •   Thirteen security trade TARs contained irregularities related to instructor sign-offs
         for 470 required tasks. We found the same instructor’s signed initials for certain
         tasks varied greatly throughout the TAR or in comparison to other TARs. We also
         found instances where the instructor’s signed initials for certain tasks were
         similar to the student’s signed initials.

     •   Four security trade TARs were missing at least one page and another security
         trade TAR had one task missing a required student signoff.

Table 5 below summarizes the number of deficiencies we found for the 37 incomplete
TARs we identified, as well as our calculation of potential liquidated damages.

Table 5: 37 Security Trade TARs Were Not in Compliance
                                      Treasure Island Security
Number of                                 Trade Students with                 Liquidated Damages
Incomplete Tasks                              Incomplete TAR                        (Totals x $750)
1–2                                                        13                            $ 9,750
3–4                                                          4                           $ 3,000
5 – 10                                                       6                           $ 4,500
11 or more                                                 14                            $ 10,500
Sub Total                                                  37                            $ 27,750
Totals 33                                                  35                            $ 26,250

Based on our results, ResCare may owe $26,250 in liquidated damages for the 37
students identified above as incomplete security trade TARs at Treasure Island. 34

ResCare Policy for Early Completers Not Always Followed

Allegations that certain TARs were not always completed in compliance with ResCare’s
early completer policy had some merit. We reviewed a judgmental sample of 60 out of
142 early CTT completions per ResCare’s policy at Treasure Island. 35 ResCare policy
required center management to justify and document its justification for students who
complete their CTT in 150 enrollment days of training or less. ResCare was unable to
provide documentation to justify early completions for 29, or 48.3 percent, of the 60
TARs tested. ResCare noted similar concerns at Treasure Island regarding the lack of
required documentation to support early completions.


33
   Two of the 37 incomplete security trade TARs were included in our statistical sample results. While we included
these two incomplete TARs in both test results to reflect the deficiencies, we did not use these TARs to calculate
potential liquidated damages for our review of security trade TARs.
34
   Ibid.
35
   Fifty four of these 60 early completers were included in our statistical or security trade samples.

                                                                              Performance Audit of ResCare, Inc.
                                                         23                         Report No. 26-10-002-01-370
                                               U. S. Department of Labor – Office of Inspector General


While these TARs did not comply with ResCare policy, completing CTT in a short period
of time is not a deficiency and does not result in potential liquidated damages. However,
we found three early CTT completions that were not consistent with PRH requirements
because one or more tasks were not completed as required. As such, ResCare may
owe $2,250 for these three students identified as having incomplete TARs.

As previously noted in Finding 3, ResCare did not provide sufficient emphasis to ensure
controls over data reliability worked effectively to prevent TAR deficiencies. In addition,
a lack of center supervisory oversight contributed to the TAR deficiencies identified.

Inadequate Support for Hardship Leave

The allegation that Treasure Island used unsupported administrative leave for family
compassion or hardship purposes to prevent students from separating at earlier dates
and inflate student OBS had some merit. In response to the allegation, we reviewed all
granted requests for Administrative Leave Without Pay for family compassion or
hardship purposes granted for 3 of the 6 months this improper activity allegedly
occurred, as well as all requests made for one month outside the allegations scope, or
34 of 231 students. The PRH limited Administrative Leave Without Pay to 30 days or
less per year and required authorization by the center director or designee, as well as
verification prior to or within one working day of granting leave.

We found leave granted for 8 of the 34 students’ leave tested did not adhere to the PRH
requirements. 36 For example:

     •   Three students were granted leave for family compassion or hardship purposes
         because they were dissatisfied with their CTT trade placements. Job Corps
         program staff indicated this was not a valid reason for granting hardship leave.

     •   One student was granted leave for family compassion or hardship purposes on
         two occasions without required supporting documentation.

We considered unsupported or non-compliant student leave days as AWOL days. When
counting unsupported or illegitimate leave days as AWOL, we determined that five of
the eight students should have been separated at an earlier date and should not have
been included in Treasure Island’s OBS calculation after that date. We determined that
Treasure Island retained the five students 72 days beyond their required termination
dates, which overstated OBS, and is considered a violation of the PRH.

Based on our results, ResCare may owe $801.36 in liquidated damages for the 5
students with separation violations. The PRH violations and our liquidated damages
calculations for the 5 students with separation violations are summarized in Table 6
below.


36
  We found 10 of 34 hardship leaves reviewed were not in compliance with PRH. Two of the 10 students were
included in our statistical sample. As such, we reduced the number of exceptions found from 10 to 8.

                                                                          Performance Audit of ResCare, Inc.
                                                      24                        Report No. 26-10-002-01-370
                                      U. S. Department of Labor – Office of Inspector General


Table 6: 5 Students Not Separated as Required at Treasure Island

                                                          Liquidated Damages
                                                            (Number of Days x
                             Number of Students           Excessive Leave Day
PRH Violation                 (Days in Violation)              Cost of $11.13)
Missing supporting
verification for leave                 2 (20 days)                        $222.60
Student not placed on
leave for valid reason                 3 (52 days)                        $578.76
Totals                                 5 (72 days)                        $801.36

Two Allegations Did Not Have Merit

The remaining two hotline complaint allegations were not substantiated. The specific
allegations were as follows:

   •   Center Safety Officer investigations were manipulated by Treasure Island center
       management.

   •   New student enrollments were delayed until the second day on center to
       manipulate OMS separation numbers.

During the audit, we found no evidence that Treasure Island or ResCare engaged in
these two alleged improper practices. Our methodology for validating the merit of the
complaint allegations is summarized in Appendix B.

Job Corps’ response to our draft report did not comment on Finding 4 because we did
not make recommendations to Job Corps that were specific to Finding 4.

ResCare stated in its response to our draft report that it disagreed with one of the five
allegations we identified as having some merit. ResCare disagreed unsupported leave
categories were used to prevent students from separating at earlier dates and inflate
OBS. We continue to believe the allegation had some merit because the unsupported
leave we identified resulted in students not being separated at an earlier date, which
overstated OBS. Additionally, ResCare partially agreed with the number of exceptions
we identified relating to the allegation that student security trade TARs were not
properly completed. We continue to affirm all of the exceptions identified because the
center did not maintain the required documentation.

ResCare agreed with the allegation that TARs were not always completed in
compliance with its fast completer policy. ResCare did not indicate agreement or
disagreement with the remaining two allegations that we concluded had some merit.




                                                             Performance Audit of ResCare, Inc.
                                            25                     Report No. 26-10-002-01-370
                                     U. S. Department of Labor – Office of Inspector General


RECOMMENDATIONS

We recommend the Interim National Director, Office of Job Corps, require ResCare to:

   1. Improve corporate-level controls and monitoring over all centers to identify and
      correct any non-compliance with applicable Federal regulations, contract
      agreements, Job Corps requirements and ResCare policies for managing and
      reporting financial activity.

   2. Reimburse $116,794 in unallowable costs charged to Job Corps for the Treasure
      Island CD’s personal housing ($55,474) and travel expenses ($10,079) and other
      goods and services for both centers ($51,241).

   3. Adhere to ResCare’s corporate and center policies regarding the use of imprest
      funds to purchase goods and services.

   4. Improve controls and monitoring over all centers to identify and correct any non-
      compliance with Job Corps safety and health program requirements and
      periodically test those controls to determine effectiveness. The controls and
      monitoring should ensure FFBs are convened, all significant incidents are
      reported to Job Corps, all safety and health observations, inspections, and
      committee meetings are conducted and documented as required.

   5. Periodically validate whether the safety and health program at its centers are
      managed in accordance with Job Corps requirements.

   6. Improve the effectiveness of training and supervisory oversight to staff
      responsible for complying with Job Corps safety and health program.

   7. Implement corrective action plans when PRH non-compliance is identified during
      data integrity audits. The corrective action should include providing Job Corps
      with any adjustments to previously reported performance.

Also, we recommend that the Interim National Director:

   8. Determine whether additional unallowable costs were charged without the
      required approvals and support, and require reimbursement as appropriate.

   9. Determine the extent of any liquidated damages resulting from overstated CTT
      completions and OBS at all ResCare operated Job Corps centers and require
      ResCare to pay liquidated damages for any overstatements at the conclusion of
      Job Corps next two year cycle of regional office center assessments. This
      includes liquidated damages at the two centers audited totaling $53,250 ($24,750
      + $26,250 + $2,250) for incomplete CTT completions and $8,587.80 ($7,786.44 +
      $801.36) for not separating students as required by Job Corps.



                                                            Performance Audit of ResCare, Inc.
                                           26                     Report No. 26-10-002-01-370
                                   U. S. Department of Labor – Office of Inspector General


We appreciate the cooperation and courtesies that Job Corps and ResCare personnel
extended the Office of Inspector General during this audit. OIG personnel who made
major contributions to this report are listed in Appendix F.




Elliot P. Lewis
Assistant Inspector General
  for Audit




                                                          Performance Audit of ResCare, Inc.
                                         27                     Report No. 26-10-002-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                Performance Audit of ResCare, Inc.
               28                     Report No. 26-10-002-01-370
           U. S. Department of Labor – Office of Inspector General




Exhibits




                                  Performance Audit of ResCare, Inc.
                 29                     Report No. 26-10-002-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                Performance Audit of ResCare, Inc.
               30                     Report No. 26-10-002-01-370
                                                      U. S. Department of Labor – Office of Inspector General


                                                                         Exhibit                                 1
       CYs 2007 – 2008 Imprest Fund Expenses at Treasure Island and Miami

                                                               Treasure Island                        Miami
                                                                   Number of                      Number of        Total
G/L Category Description                              Amount Transactions           Amount      Transactions    Amount
Food                                                  $ 71,842              36      $ 14,450              23    $ 86,292
Other Social Skills Expense                             45,246              91        39,543              67      84,789
Travel and Training                                     40,734              84        22,421              57      63,155
Other Administrative Expense                            37,561              66        13,077              50      50,638
Construction/Rehabilitation                             49,221               5             -               -      49,221
Other Support Service Expense                           23,847              35         6,710              35      30,557
Other Vocational Expense                                17,391              39         2,364              21      19,755
Other Academic Expense                                   9,478              26         4,997              25      14,475
Other Facilities Maintenance Expense                     8,477              22         3,451              10      11,928
Equipment                                                  200               1         9,144              24       9,344
Other Security Expense                                      50               1         7,981              21       8,031
Placement Travel and Training                            3,824              11         1,209               2       5,033
Outreach and Admissions Travel and Training              2,970               1         1,899              14       4,869
Other Medical Expense                                      904              12         3,322              29       4,226
Outreach and Admissions Other Expense                      835               2         3,030              22       3,865
Medical Personnel Expense                                  450               1         3,340               2       3,790
Communications                                               -               -         3,548              15       3,548
Vocational Personnel Expense                             3,378               1              -              -       3,378
Placement Other Expense                                     50               1         2,595              15       2,645
Clothing                                                 1,993               3           460               2       2,453
Outreach and Admissions Media Advertising                    -               -           200               1         200
Vocational Skills Training                                 150               1              -              -         150
Motor Vehicle Expense                                       61               2            65               3         126
Placement Media Advertising                                 98               2              -              -          98
General Services Administration - Repair                     -               -            40               2          40

Totals                                               $ 318,760            443      $ 143,846            440    $ 462,606
Source: OIG analysis of ResCare financial records.




                                                                                 Performance Audit of ResCare, Inc.
                                                             31                        Report No. 26-10-002-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                Performance Audit of ResCare, Inc.
               32                     Report No. 26-10-002-01-370
             U. S. Department of Labor – Office of Inspector General




Appendices




                                    Performance Audit of ResCare, Inc.
                   33                     Report No. 26-10-002-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                Performance Audit of ResCare, Inc.
               34                     Report No. 26-10-002-01-370
                                      U. S. Department of Labor – Office of Inspector General


                                                                                Appendix A
Background

Job Corps is authorized by Title I-C of the Workforce Investment Act (WIA) of 1998 and
is administered by the Department of Labor, Office of the Secretary, Office of Job
Corps, under the leadership of the National Director, supported by a National Office
staff and a field network of regional offices.

The purpose of Job Corps is to assist at-promise young women and men, ages 16
through 24, who need and can benefit from a comprehensive program, operated
primarily in the residential setting of a Job Corps Center, to become more responsible,
employable, and productive citizens.

As a national, primarily residential training program, Job Corps' mission is to attract
eligible young adults, teach them the skills they need to become employable and
independent, and place them in meaningful jobs or further education.

Education, training, and support services are provided to students at Job Corps center
campuses located throughout the United States and Puerto Rico. Job Corps Centers
are operated for the DOL through competitive contracting processes, and by other
Federal Agencies through inter-agency agreements.

The WIA legislation authorizing Job Corps requires the Secretary of Labor to provide a
level of review of contractors and service providers over a 3-year period. The Code of
Federal Regulations states all Job Corps centers are to be reviewed over the 3-year
period.

ResCare’s headquarters is located in Louisville, Kentucky. ResCare provides CTT and
job placement services to more than 9,200 students annually. As of July 1, 2009,
ResCare operated 15 centers under contract with DOL. ResCare lost the bids to
operate the Treasure Island and the Pittsburgh Job Corps centers (Pittsburgh) in 2009.
The contracts for Treasure Island expired on May 31, 2009, and Pittsburgh on
June 30, 2009. The two centers included in our audit (Treasure Island and Miami) have
training capacities (authorized OBS) of 800 and 300 students, respectively.




                                                             Performance Audit of ResCare, Inc.
                                             35                    Report No. 26-10-002-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                Performance Audit of ResCare, Inc.
               36                     Report No. 26-10-002-01-370
                                     U. S. Department of Labor – Office of Inspector General


                                                                               Appendix B
Objectives, Scope, Methodology, and Criteria

Our audit objectives were to answer the following questions:

   1. Did ResCare ensure compliance with Job Corps requirements for managing and
      reporting financial activity?

   2. Did ResCare ensure compliance with Job Corps requirements for managing
      center safety and health programs?

   3. Did ResCare ensure compliance with Job Corps requirements for reporting
      performance?

   4. Did the hotline complaints alleging improper practices related to student
      misconduct, Career Technical Training (CTT) completions, student attendance,
      student On-Board Strength (OBS), and Outcomes Measurement System (OMS)
      separations at the Treasure Island Job Corps center have merit?

Scope

This report reflects the audit work conducted to determine ResCare’s overall corporate
internal control structure as it relates to all ResCare operated Job Corp centers and the
specific controls and results for two of those centers — Treasure Island and Miami. We
conducted our work at ResCare’s corporate headquarters in Louisville, Kentucky;
Treasure Island in San Francisco, California; Miami in Miami Gardens, Florida; and Job
Corps Regional Office in San Francisco, California. We reviewed center financial data
for the last fully completed contract year at each center. For Miami, we reviewed CY
2007 (November 1, 2007, through October 31, 2008), and for Treasure Island we
reviewed CY 2008 (February 1, 2008, through January 31, 2009). Additionally, we
reviewed consultant files and lease agreements at Treasure Island, which included
transactions from January 1, 2007, through January 31, 2009. We reviewed center
safety and performance data for PY 2007 (July 1, 2007, through June 30, 2008). Our
audit work at Treasure Island was limited to validating the hotline complaint allegations
directed at Treasure Island, as well as ensuring compliance with Job Corps
requirements for managing and reporting financial activity.

The relationship between the population and the items tested and the kinds and sources
of evidence are fully described in the Methodology section below.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.


                                                            Performance Audit of ResCare, Inc.
                                           37                     Report No. 26-10-002-01-370
                                      U. S. Department of Labor – Office of Inspector General


Methodology

To accomplish our audit objectives, we obtained an understanding of applicable laws,
regulations and Job Corps policies and procedures. We also obtained an understanding
of ResCare’s processes, policies, and procedures for managing center safety and
health, and reporting financial and performance information to Job Corps. We
interviewed ResCare’s corporate officials at ResCare’s corporate headquarters in
Louisville, Kentucky and interviewed both ResCare’s corporate officials and center
officials at Treasure Island and Miami.

At the headquarters offices, we identified and evaluated ResCare’s internal controls
over center safety and health, and financial and performance reporting. We assessed
risks related to financial and performance misstatement and evaluated ResCare’s
overall control environment. We selected two ResCare center locations for detailed
testing — Treasure Island and Miami. We selected these centers based on a risk
assessment that considered a number of variables, including OBS, relevant complaint
allegations, turnover in key center staff, prior OIG audit history, and OIG and Job Corps
management concerns. We assessed the reliability of related data for the applicable
audit period and determined the data was sufficiently reliable to accomplish our audit
objectives. We used a combination of statistical and judgmental sampling to select the
items tested at these centers. Judgmentally selected items, which cannot be projected
to the intended population(s) were chosen based on a number of factors including
known deficiencies (i.e., related audit concerns identified in prior OIG, DOL and
ResCare reports); inquiries of and information provided by Job Corps, ResCare, and
center personnel; and the nature of certain transactions (e.g., high dollar value,
susceptibility to theft or manipulation). Our methodology for each center is described
below.

Treasure Island

Considering the expiration of ResCare’s contract to operate Treasure Island on
May 31, 2009, and seven hotline complaint allegations directed at Treasure Island, we
limited our testing to determining the validity of the complaint allegations and Treasure
Island’s non-personnel expenses.

Managing and Reporting Financial Activity

To gain a better understanding of the center’s system for financial reporting, we
interviewed key ResCare and center officials and staff, reviewed applicable policies and
procedures, and analyzed prior audit and Job Corps monitoring reports to gain a better
understanding of the center’s system for managing and reporting financial activity. We
identified and evaluated the center’s internal controls over managing and reporting
financial activity, assessed related risks, and evaluated the center’s overall control
environment for managing and reporting financial activity.




                                                             Performance Audit of ResCare, Inc.
                                            38                     Report No. 26-10-002-01-370
                                      U. S. Department of Labor – Office of Inspector General


For non-personnel expenses, we reviewed a judgmental sample of 63 transactions
totaling $455,466 out of $8,158,638 from Treasure Island’s CY 2008 accounts payable,
check register, and general ledger activity records. Using a risk-based approach, we
scanned all transactions for payments to employees and unusual vendors, payments for
valuable and attractive items, payments for unallowable or unusual goods and services,
and high dollar purchases ($25,000 or more) and judgmentally selected transactions to
test. We reviewed transactions for allowability, reasonableness, compliance with
applicable procurements laws, regulations, and policies, and adequate supporting
documentation. We also reviewed 3 non-personnel expense transactions, which
included 8 batched imprest fund transactions totaling $35,493, or 11.1 percent of the
center’s imprest fund transactions, for compliance with ResCare policy and its center
SOP. These 3 transactions were included in our judgmental sample of 63 non-
personnel expense transactions.

Based on the results of our initial testing, which identified unallowable charges for the
CD’s personal housing and travel expenses, we expanded our testing to include a
review of the CD’s compensation for CYs 2007 and 2008.

Center Safety and Health Program

To gain a better understanding of the center’s safety and health program, we
interviewed key ResCare and center officials and staff, reviewed applicable policies and
procedures and also evaluated the results of corporate and DOL regional office
assessments of center safety processes. We identified and evaluated the center’s
internal controls over safety and health, assessed related risks, and evaluated the
center’s overall control environment for safety and health.

To address hotline complaint allegations regarding manipulation of the center safety
officer’s investigations, we reviewed all security log book entries and Level I and II
infractions reported to Job Cops during PY 2007 to determine whether Treasure Island
appropriately addressed incidents involving serious student misconduct.

We reviewed all security log book entries for PY 2007 and judgmentally selected 10
events involving potential Level I and II infractions to determine whether the event was
reported in Job Corps’ CIS, the center maintained adequate supporting documentation
of the event, and the center addressed the event timely, appropriately, and in
accordance with the PRH.

We obtained a CIS report of all Level I and II infractions and corresponding FFB
decisions. We reviewed all reported Level I infractions (19 students) and Level II
infractions (48 students) to determine whether the center convened FFBs and
separated students in accordance with PRH timeframes. The PRH required centers to
convene FFBs within 3 to 5 training days for Level I and II infractions, respectively.




                                                             Performance Audit of ResCare, Inc.
                                             39                    Report No. 26-10-002-01-370
                                    U. S. Department of Labor – Office of Inspector General


Reporting Performance

We interviewed key ResCare and center officials and staff, reviewed applicable policies
and procedures, reviewed prior audit reports, and performed walkthroughs to gain a
better understanding of Treasure Island’s system for collecting, recording, processing,
and reporting performance data. We used a combination of statistical and non-statistical
sampling to examine performance reporting. We identified and evaluated the center’s
internal controls over performance reporting, assessed related risks, and evaluated the
center’s overall control environment for performance reporting.

To determine whether Treasure Island properly reported CTT completions, we used
statistical and non-statistical sampling to review a total of 127 out of 611 students
reported as CTT completers by Treasure Island during PY 2007. Our review included a
random statistical sample of 65 students and 62 security trade completers reported
during PY 2007, as well as a judgmental sample of 60 out of 142 students reported as
early CTT completers, at Treasure Island. Six of these 62 security trade students were
included in our statistical sample of CTT completers. Fifty four of the 60 early
completers were included in our statistical or security trade samples.

We reviewed each student TAR for a number of attributes, including tasks not
documented as having been completed (i.e., lacked required instructor/student signoffs,
completion dates, proficient performance ratings); task completion dates occurring
outside of student’s TAR enrollment; tasks excluded without proper approval; and the
reasonableness of time noted to complete tasks. In addition, security trade TARs were
reviewed for hotline complaint specific allegations (see Methodology for testing
performed for security trade TARs).

To determine if controls over student leave and attendance were in place, we reviewed
a random statistical sample of 58 out of the 289 students who AWOL-separated from
Treasure Island during PY 2007 (i.e., students with six consecutive training days
recorded as AWOL or 12 training days recorded as AWOL within a 180-day period).

In addition, we reviewed all of the 30 students separated during PY 2007 whose records
indicated 7 days or more leave and AWOL immediately prior to separation and all of the
2 students identified in CIS reports as exceeding PRH mandated limits (had in excess of
6 consecutive AWOL training days or 12 AWOL training days within a 180-day period).
We assessed whether there were questionable patterns of leave taken, such as unpaid
leave followed by AWOL status, before separation from the center and whether
students had excessive amounts of leave taken. We reviewed student records to
identify (1) whether a student placed on leave had a leave request form completed, (2)
whether student leave request forms had proper signature approvals as required by the
PRH, and (3) whether approved students’ leave was supported by adequate
documentation as required by the PRH. 37 We calculated the leave days taken over
designated limits identified in the PRH and determined if students should have been


37
     PRH Chapter 6.1.

                                                           Performance Audit of ResCare, Inc.
                                           40                    Report No. 26-10-002-01-370
                                     U. S. Department of Labor – Office of Inspector General


separated from the centers at an earlier date and should not have been included in the
respective center’s OBS calculation after that date. 38

Hotline Complaints

We received seven hotline complaint allegations, all directed to Treasure Island. Those
seven allegations were (1) student TARs were not properly completed; (2) student
security trade TARs were not properly completed; (3) student assistants were
performing instructor signoffs on security trade TARs; (4) certain TARs were not always
completed in compliance with ResCare’s early completer policy; and (5) unsupported
leave categories (e.g., administrative, personal) used to prevent students from
separating at earlier dates and inflate student OBS; (6) Center Safety Officer
investigations were manipulated by management; and (7) new student enrollment
delayed until second day on center to manipulate OMS separation numbers.

To determine whether the hotline complainant’s allegation that student TARs were not
properly completed, we interviewed ResCare corporate personnel and Treasure Island
center management and staff employed during the scope of the allegation. In addition,
we used a combination of statistical and non-statistical sampling to review a total of 127
out of 611 students reported as CTT completers by Treasure Island during PY 2007.
We reviewed each student TAR for a number of attributes, including tasks not
documented as having been completed (i.e., lacked required instructor/student signoffs,
completion dates, proficient performance ratings); task completion dates occurring
outside of student’s enrollment date; tasks excluded without proper approval; and the
reasonableness of time noted to complete tasks. In addition, security trade TARs were
reviewed for hotline complaint specific allegations (see Methodology for testing
performed for security trade TARs).

To determine whether the complainant’s allegations that student security trade TARs
were not properly completed and student assistants were performing instructor signoffs
on TARs, we interviewed ResCare corporate personnel and Treasure Island center
management and staff employed during the scope of the allegation. We also reviewed
all of the 62 students reported as security CTT completers by Treasure Island during PY
2007. Six of these 62 security trade students were included in our statistical sample of
CTT completers. In addition to the criteria used in our statistical and judgmental TAR
testing at Treasure Island and Miami, we reviewed each student’s TAR for specific
allegations made in the complaint, including tasks requiring CPR and first-aide
certification not completed; completion dates of tasks requiring CPR and first-aide
certification before the center had a reliable certification program; and signoffs being
made by student assistants in place of instructor.

To determine whether the complainant’s allegations that certain TARs were not always
completed in compliance with ResCare’s early completer policy, we interviewed
ResCare corporate personnel to obtain an understanding of the policy and Treasure
Island center management and staff employed during the scope of the allegation to
38
     PRH Chapter 6.4.

                                                            Performance Audit of ResCare, Inc.
                                            41                    Report No. 26-10-002-01-370
                                     U. S. Department of Labor – Office of Inspector General


obtain an understanding of processes used to follow the policy. In addition, we used
statistical and non-statistical sampling to review a total of 60 out of 142 students who
meet ResCare’s definition of being an early completer— completing CTT training in 150
days in trade or less. These 60 early completers were included in our review of 127
students at Treasure Island that completed CTT training during PY 2007. The 142 total
early completers were included in our population of 611 students reported as CTT
completers reported at Treasure Island during PY 2007. Fifty four of these 60 early
completers were included in our statistical or security trade samples. We reviewed
applicable student files for having an Early Completer Justification Form to support the
student’s completion of CTT.

To determine whether the complainant’s allegations that students were placed on
unsupported leave categories (e.g., administrative leave without pay for family
compassion or hardship purposes) to prevent students from separating at earlier dates
and inflate student OBS, we interviewed ResCare corporate staff and Treasure Island
center management and staff employed during the scope of the allegation to obtain an
overview of the process for granting leave and collecting supporting documentation for
leave at the center. The scope of the allegation was April 2007 through September
2007, or six months. We judgmentally selected 3 of the 6 months (July 2007 through
September 2007) to test all students granted Administrative Leave without pay for family
compassion or hardship purposes, or 27 of 156 students. In addition we selected one
month outside the scope of the allegation to test all students granted the leave, or 8 of
78 students (three students, including one selected for testing, were granted leave
during both periods).

To determine whether the complainant’s allegations that Center Safety Officer
investigations were manipulated by management, we interviewed Treasure Island
center management employed during the scope of the allegation to obtain an
understanding of the investigation processes. In addition, we obtained a CIS report of all
FFB determinations and reviewed for instances of management overturning FFB
decisions to separate students for disciplinary actions. We also reviewed all security log
book entries and Level I and II infractions reported to Job Cops during PY 2007 to
determine whether Treasure Island appropriately addressed incidents involving serious
student misconduct (see methodology for Center Safety and Health Program above for
details).

To determine whether the complainant’s allegations that new student enrollments were
delayed until the second day on center to manipulate OMS separation numbers, we
reviewed center policy and procedures to obtain an understanding of the enrollment
process. In addition, we judgmentally selected two months of new student enrollments,
and compared expected enrollment dates to enrollment dates in Job Corps CIS.




                                                            Performance Audit of ResCare, Inc.
                                           42                     Report No. 26-10-002-01-370
                                     U. S. Department of Labor – Office of Inspector General


Miami

Managing and Reporting Financial Activity

We interviewed key ResCare and Miami officials and staff, reviewed applicable policies
and procedures, analyzed prior audit and Job Corps monitoring reports, and performed
a walkthrough of selected transactions to gain a better understanding of the center’s
system for managing and reporting financial activity. We identified and evaluated the
center’s internal controls over managing and reporting financial activity, assessed
related risks, and evaluated the center’s overall control environment for managing and
reporting financial activity.

For non-personnel expenses, we reviewed a judgmental sample of 54 transactions
totaling $346,067 out of $2,849,402 from Miami’s CY 2007 accounts payable, check
register, and general ledger activity records. Using a risk-based approach, we scanned
all transactions for payments to employees and unusual vendors, payments for valuable
and attractive items, payments for unallowable or unusual goods and services, and high
dollar purchases ($25,000 or more) and judgmentally selected transactions to test. We
reviewed transactions for allowability, reasonableness, compliance with applicable
procurements laws, regulations, and policies, and adequate supporting documentation.
We also reviewed 2 non-personnel expense transactions, which included 11 batched
imprest fund transactions totaling $5,002, or 3.5 percent of the center’s imprest fund
transactions, for compliance with ResCare policy and its center SOP. These 2
transactions were included in the judgmental sample of 54 non-personnel expense
transactions.

For personnel expenses, we performed an analytical review of payroll expenses and
judgmentally selected and reviewed payroll records for 12 employees at Miami. Using a
risk-based approach, we judgmentally selected payments to personnel authorized to
make changes directly to the payroll system, payments to personnel made for overtime
and bonuses, and payments to personnel who had a unique earnings classification, as
well as management personnel. The review was to determine if expenses were for
actual and allowable work done by valid employees at their authorized rates. This
included tracing the selected expenses to authorized timesheets, leave, and pay rates.

To determine compliance with PRH requirements for reporting reimbursable expenses
we examined the monthly Employment and Training Administration Form 2110, Job
Corps Contract Center Financial Report, reporting reimbursable expenses and the bi-
weekly Form 1034, Public Voucher, requesting reimbursement for center expenses for
CY 2007 at Miami. Furthermore, we identified variances from budgeted expenses, and
reviewed significant variances to determine whether the variances were reasonable.

Center Safety and Health

To gain a better understanding of the center’s safety and health program, we
interviewed key ResCare and center officials and staff, reviewed applicable policies and


                                                            Performance Audit of ResCare, Inc.
                                            43                    Report No. 26-10-002-01-370
                                     U. S. Department of Labor – Office of Inspector General


procedures, performed walkthroughs, and conducted a physical review of the center’s
facilities. We also evaluated the results of corporate and DOL regional office
assessments of center safety and health processes, Safety and Occupational Health
Committee meeting minutes, inspection reports, and toured the center to ensure there
were no apparent facility safety and health issues and to ensure that problems identified
by center, corporate, and DOL reviews were corrected. We identified and evaluated the
center’s internal controls over safety and health, assessed related risks, and evaluated
the center’s overall control environment for safety and health.

We obtained a CIS report of all FFB determinations during PY 2007 and reviewed all 35
instances of management overturning FFB recommendations. To determine whether
management appropriately overturned FFB recommendations we reviewed instances
for management explanations and supporting documentation.

We reviewed all security log book entries for PY 2007 and judgmentally selected 8
Level I or Level II events to determine whether the event was reported in Job Corps’
CIS, the center maintained adequate supporting documentation of the event, and the
center addressed the event timely, appropriately, and in accordance with the PRH.

We obtained a CIS report of all Level I and II infractions and corresponding FFB
decisions. We reviewed all reported Level I infractions (13 students) and Level II
infractions (28 students) to determine whether the center convened FFBs and
separated students in accordance with PRH timeframes. The PRH required centers to
convene FFBs within 3 to 5 training days for Level I and II infractions, respectively.

Performance Reporting

We interviewed key ResCare and center officials and staff, reviewed applicable policies
and procedures, reviewed prior audit reports, and performed walkthroughs to gain a
better understanding of Miami’s system for collecting, recording, processing, and
reporting performance data. We used a combination of statistical and non-statistical
sampling to examine performance reporting. We identified and evaluated the center’s
internal controls over performance reporting, assessed related risks, and evaluated the
center’s overall control environment for performance reporting.

To determine if reported CTT completers had supporting TAR documentation in
compliance with PRH requirements, we reviewed a statistical sample of 53 out of the
205 students reported by Miami as CTT completers.

We reviewed each student TAR for a number of attributes, including tasks not
documented as having been completed (i.e., lacked required instructor/student signoffs,
completion dates, proficient performance ratings); task completion dates occurring
outside of student’s trade enrollment; tasks excluded without proper approval; and the
reasonableness of time noted to complete tasks.




                                                            Performance Audit of ResCare, Inc.
                                           44                     Report No. 26-10-002-01-370
                                      U. S. Department of Labor – Office of Inspector General


To determine if controls over student leave and attendance were in place, we reviewed
a random statistical sample of 52 out of the 128 students who AWOL-separated from
Miami during PY 2007 (had six consecutive training days recorded as AWOL or 12
training days recorded as AWOL within a 180-day period).

In addition, we reviewed all of the 12 students separated during PY 2007 whose records
indicated 7 days or more leave and AWOL immediately prior to separation. We
assessed whether there were questionable patterns of leave taken, such as unpaid
leave followed by AWOL status, before separation from the center and whether
students had excessive amounts of leave taken. We reviewed student records to
identify (1) whether a student placed on leave had a leave request form completed, (2)
whether student leave request forms had proper signature approvals as required by the
PRH, and (3) whether approved students’ leave was supported by adequate
documentation as required by the PRH. We calculated the leave days taken over
designated limits identified in the PRH and determined if students should have been
separated from the centers at an earlier date and should not have been included in the
respective center’s OBS calculation after that date.

To determine if students reported as GED/HSD completers were accurately reported,
we reviewed a statistical sample of 30 out of 130 students claimed as earning GED
certificates and High School Diplomas during PY 2007 at Miami. To verify GED/HSD
attainment, we reviewed each student file for copies of certificates/diplomas and score
reports/transcripts.

Criteria

We used the following criteria to perform this audit:

   •   Code of Federal Regulations,
   •   Federal Acquisition Regulations,
   •   Job Corps Policy and Requirements Handbook,
   •   Center Operating Contracts,
   •   ResCare Standard Operating Procedures,
   •   Center Standard Operating Procedures,
   •   GAO Government Auditing Standards and
   •   GAO Standards for Internal Control in the Federal Government.




                                                             Performance Audit of ResCare, Inc.
                                            45                     Report No. 26-10-002-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                Performance Audit of ResCare, Inc.
               46                     Report No. 26-10-002-01-370
                                      U. S. Department of Labor – Office of Inspector General


                                                                                Appendix C
Acronyms and Abbreviations


AWOL             Absent Without Leave
CD Center               Director
CIS              Center Information System
CPR Cardiopulm              onary resuscitation
CTT              Career Technical Training
CY               Contract Year
DOL              Department of Labor
FAR              Federal Acquisition Regulations
FFB              Fact Finding Board
GED General              Educational Development
HSD              High School Diploma
Miami            Miami Job Corps Center
OIG              Office of Inspector General
OBS              On-Board Strength
OMS              Outcomes Measurement System
Pittsburgh       Pittsburgh Job Corps Center
PRH              Policy and Requirements Handbook
PY               Program Year
ResCare ResCare           Incorporated
SOP Standard              Operating Procedures
TAR              Training Achievement Record
Treasure Island Treasure Island Job Corps Center
WIA              Workforce Investment Act




                                                             Performance Audit of ResCare, Inc.
                                             47                    Report No. 26-10-002-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                Performance Audit of ResCare, Inc.
               48                     Report No. 26-10-002-01-370
                               U. S. Department of Labor – Office of Inspector General


                                                                        Appendix D
ResCare Response to Draft Report




                                                      Performance Audit of ResCare, Inc.
                                     49                     Report No. 26-10-002-01-370
U. S. Department of Labor – Office of Inspector General




                       Performance Audit of ResCare, Inc.
      50                     Report No. 26-10-002-01-370
U. S. Department of Labor – Office of Inspector General




                       Performance Audit of ResCare, Inc.
      51                     Report No. 26-10-002-01-370
U. S. Department of Labor – Office of Inspector General




                       Performance Audit of ResCare, Inc.
      52                     Report No. 26-10-002-01-370
U. S. Department of Labor – Office of Inspector General




                       Performance Audit of ResCare, Inc.
      53                     Report No. 26-10-002-01-370
U. S. Department of Labor – Office of Inspector General




                       Performance Audit of ResCare, Inc.
      54                     Report No. 26-10-002-01-370
U. S. Department of Labor – Office of Inspector General




                       Performance Audit of ResCare, Inc.
      55                     Report No. 26-10-002-01-370
U. S. Department of Labor – Office of Inspector General




                       Performance Audit of ResCare, Inc.
      56                     Report No. 26-10-002-01-370
U. S. Department of Labor – Office of Inspector General




                       Performance Audit of ResCare, Inc.
      57                     Report No. 26-10-002-01-370
        U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                               Performance Audit of ResCare, Inc.
              58                     Report No. 26-10-002-01-370
                                U. S. Department of Labor – Office of Inspector General


                                                                         Appendix E
Job Corps Response to Draft Report




                                                       Performance Audit of ResCare, Inc.
                                      59                     Report No. 26-10-002-01-370
U. S. Department of Labor – Office of Inspector General




                       Performance Audit of ResCare, Inc.
      60                     Report No. 26-10-002-01-370
U. S. Department of Labor – Office of Inspector General




                       Performance Audit of ResCare, Inc.
      61                     Report No. 26-10-002-01-370
U. S. Department of Labor – Office of Inspector General




                       Performance Audit of ResCare, Inc.
      62                     Report No. 26-10-002-01-370
                                    U. S. Department of Labor – Office of Inspector General


                                                                             Appendix F
Acknowledgements

Key contributors to this report were Ray Armada (Audit Director),
Jon Ling (Audit Manager), Michael Elliott, Arijit Bandyopadhyay, Steven Grubb,
Catherine Christian, and Ajit Buttar.




                                                           Performance Audit of ResCare, Inc.
                                          63                     Report No. 26-10-002-01-370
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online: http://www.oig.dol.gov/       hotlineform.htm
Email: hotline@         oig.dol.gov

Telephone:   1-800-347-3756
202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
 Room                S-5506
              Washington, D.C. 20210
